Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




 MEDICAL EQUIPMENT SUPPLIERS 


           Assuring Legitimacy




                    JUNE GIBBS BROWN
                     Inspector General

                       DECEMBER 1997
                        OEI-04-%00240
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95
452, is to protect the integrity of the Department   of Health and Human Services
programs as well as the health and welfare of beneficiaries      served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary
of program and management         problems and recommends     legislative, regulatory, and
operational   approaches   to correct them.




                         Office of Evaluationand Inspections

The Office of Evaluation and Inspections (OEI) is one of several           components     of the 

Office of Inspector General.     It conducts short-term management         and program 

evaluations (called inspections)    that focus on issues of concern to     the Department,     the 

Congress, and the public. The inspection reports provide findings           and 

recommendations     on the efficiency, vulnerability, and effectiveness      of departmental 

programs. 


OEI’s Atlanta Regional Office prepared this report under the direction of Jesse J. 

Flowers, Regional Inspector General, and Chris Koehler, Deputy Regional Inspector 

General.  Principal OEI staff included: 


REGION                                                  HIZADQUARTERS

Joe Townsel, Project Leader                             Stuart Wright, Program    Specialist
Betty Apt, Team Leader 

Paula Bowker, Program Analyst 

Tammy Hipple, Statistician 



To obtain   a copy of this report,   call the Atlanta   Regional   Office at (404) 331-4108.
Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 MEDICAL EQUIPMENT SUPPLIERS 


           Assuring Legitimacy




            sERV1



                    JUNE GIBBS BROWN
                    Inspector General

                       DECEMESER 1997
                        OEI-O4-So0240
              EXECUTIVE                             SUMMARY

PURPOSE

To determine whether persons who obtain Medicare            durable   medical   equipment
supplier numbers operate bona fide businesses.

BACKGROUND

Before businesses can bill Medicare for sale and rental of durable medical equipment,
they must apply for and receive a billing number.   Applicants are approved and issued
such numbers by the National Supplier Clearinghouse     in Columbia, South Carolina.
To help assure that applicants are bona fide businesses, the Health Care Financing
Administration   (HCFA) requires that each supplier meet 11 standards.

Despite such safeguards, however, HCFA reported in 1996 that out of a sample of 36
new DME applicants in the Miami, Florida area, 32 were not bona fide businesses.
Among other problems, some bogus applicants did not have a physical address, or an
inventory of durable medical equipment.  According to HCFA staff, those companies
should not be issued a supplier number because they were not operational     entities.
Further, HCFA staff said such suppliers are typically involved in fraudulent activities.

In light of the bogus applicants discovered in Miami, HCFA asked us to ascertain
whether similar problems exist elsewhere in the country.     In response, we conducted
unannounced     on-site inspections of 420 suppliers who were issued billing numbers
between January and June 1996. We also inspected 35 applicants who had not yet
been approved.     Our sampled suppliers were located in 12 large metropolitan    areas in
New York, Florida, Texas, Illinois, and California.

FINDINGS

  b	   One of every 14 suppliers    and 1 of every 9 new applicants       did not have a
       required physical address.

  b	   Forty-one percent of suppliers    and 40 percent of new applicants failed to meet
       at least one supplier standard,   such as those related to warranties, information
       for customers, and inventories.

  b	   Oversight of home-based    suppliers is particularly difficult, e.g., typically, they
       are not at home during normal business hours and have answering machines
       that do not identify the business.

  b	   The ease and low expense      of acquiring   a supplier   number   facilitates   entry of
       abusers into the program.



                                               i
CONCLUSION

Presently, HCFA and the National Supplier Clearinghouse             are approving many
inexperienced,     unqualified, and unethical people for supplier numbers.       The desk
verification process for approving suppliers is unreliable for detecting unethical and
improper practices of bogus suppliers.         On-site verification is needed, but not for all
suppliers.   HCFA and the National Supplier Clearinghouse            may determine    that some
suppliers such as large corporations       need no or only occasional site verification.
Further, the supplier number application form needs to be revised. Presently, it is
inadequate     for judging the suitability of supplier applicants.

RECOMMENDATION

HCFA should take quick action to ensure the integrity of Medicare suppliers of
durable medical equipment. The following options would help accomplish that goal.

        Charge     all applicants   an application     fee.

        Require     all suppliers   to have a surety bond.

        Conduct     on-site visits at applicants’      physical locations.

        Require     program    training    for new suppliers      by the Medicare        regional   carriers.

        Increase    the review of inactive      numbers.

        Further    revise the application      form.

        Seek authority      to require    Social Security     and tax identification      numbers     from
        applicants.

        Impose     on denied    applicants    a 6-month       waiting period    before    reapplication.

Implementation       of the first option     will provide     financial   resources   to implement         the
others.

AGENCY       COMMENT?3

HCFA     concurred with our recommendation.    Their comments are in Appendix A.
The Balanced Budget Act of 1997 authorized Medicare to collect Social Security and
tax identification numbers and required suppliers to have a surety bond.




                                                       ii
                        TABLE                              OF                CONTENTS

                                                                                                               PAGE

ExlTmwESuMMARY 


INTRODUCTION..                   ...............................................                                      1


FINDINGS       ......................................................                                                 5


   Physical Addresses               ..............................................                                    5


   Other   Supplier        Standards             .........................................                            6


   Oversight     of Home-Based                   Suppliers                  ................................          7


   Ease of Getting           a Billing Number                    ..................................               10 


CONCLUSION             ..................................................                                         11 


RECOMMENDATION..                            ..........................................                            13 


AGENCYCOMMENTS                           ...........................................                              15 


APPENDIX       A:     HCFACOMMENTS                                  ................................             A-l
                             INTRODUCTION

PURPOSE

To determine whether persons who obtain Medicare          durable   medical   equipment
supplier numbers operate bona fide businesses.

BACKGROUND

Requirm            For DME SupplierNumbers

Before businesses can bill Medicare for sales or rental of durable medical equipment
(DME), they must apply for and receive a billing number.     In 1993, the Health Care
Financing Administration   (HCFA) authorized establishment     of the National Supplier
Clearinghouse   (NSC), a contractor that reviews and approves applications.    Section
1834 of the Social Security Act requires that applicants and approved DME suppliers
meet 11 standards.    They are

     .     fill orders from their own inventory or under a contractual arrangement, 

     .     oversee delivery of equipment, 

     .     answer questions and complaints from beneficiaries, 

     .     maintain and repair rental equipment, 

     .     maintain a physical address at the business site, 

     .     comply with all State and Federal licensure requirements, 

     .     honor warranties on equipment, 

     .     accept the return of substandard       equipment, 

     .     disclose consumer information       (a list of the standards) to beneficiaries, 

     .     comply with the ownership disclosure provisions of the Social Security Act, and 

     .     have proof of liability insurance. 


HCFA has a notice of proposed rulemaking under development             which would establish
nine new standards that DME suppliers must meet.

lk       Problem

Despite the existence of supplier standards and NSC reviews, HCFA reported in 1996
that 32 of 36 new DME supplier applicants in the Miami, Florida area were not bona
fide businesses.  Among other problems, some bogus DME suppliers did not have a
physical address, or an inventory of durable medical equipment.     For example, in one
location, a small subdivided office supposedly housed four suppliers.      Though their
business licenses were posted in the office, there was no inventory at the site and no
business was being conducted.     According to HCFA staff, those companies should not
be issued a supplier number because they were not operational      entities.   Further,
HCFA said the bogus DME suppliers were likely established to abuse or defraud
Medicare.    Other reviewers such as the NSC, DME Regional Carrier in South


                                                1
Carolina,     and Florida   Medicaid       staff corroborated         HCFA’s     findings   and conclusions.

Potentid Si@aificanceOf l%e hblem

The NSC issued over 300,000 supplier                 applications,        and over 100,000 billing numbers
nationwide since 1993.

It is important to determine the extent that such billing numbers were approved for
bogus companies that may be intent on defrauding Medicare.       Preventing the issuance
of billing numbers to such companies could result in a substantial savings to Medicare.
Nationwide, Medicare approved DME claims for a total of $4.7 billion in 1995. In the
Miami area alone, Medicare paid $406.3 million for DME supplies during a 22-month
period ending April 30, 1996.

Some staff with HCFA, NSC, and the DME Regional Carrier suggested that problems
like those observed in the Miami area may exist in other urban areas. HCFA asked
us to determine whether problems similar to those encountered  in the Miami area
were occurring elsewhere in the country. We conducted this inspection in response to
that request.

Il4ETHODoLoGY

We selected 12 metropolitan    areas for review of issuance of DME supplier numbers 

(see chart below). Generally, we selected the largest cities in California, Florida, 

Illinois, New York, and Texas. We used U.S. census population      data to identify the 12 

largest cities. We excluded the Miami, Florida area because of ongoing criminal 

investigations  of DME suppliers. 



II              STATES                 I          SELECTED             METROPOLlTAN            AREAS           /I

 California                                Los Angeles,        San Diego, San Francisco

IIFlorida                                  Jacksonville,       Orlando,     Tampa                              /I
 Illinois                                  Chicago

IINew    York                              New York City, Buffalo                                              II
 Texas                                     Dallas, Houston,          San Antonio

We limited our review of DME supplier numbers to those located in the major
metropolitan   areas of the cities selected.  We used U.S. Postal Service information    to
identify zip codes that represented    the major metropolitan area of each selected city.
For example, in Chicago, Illinois, the zip codes were 60000 through 60799. In many
instances, the zip codes covered the selected city and several surrounding    cities and
towns.




                                                           2
For each zip code, we obtained from NSC the applications       of all DME suppliers
approved during January through June 1996. During that 6-month period, 1,180
suppliers in our selected cities had obtained approved billing numbers.   We selected          a
purposive sample of 420 of the 1,180 suppliers for inspection.

For each zip code, we also obtained, from NSC, all applications for DME supplier
numbers that were pending approval when we began making site visits. From the 53
pending applications, we selected a sample of 35 for inspection.

We selected suppliers and applicants without prior knowledge of the legitimacy of
their business practices.  However, we designed our sample of suppliers to include a
variety of supplier types, including physicians, optical stores, therapists, orthotists, and
pharmacies.

Thereafter, we made unannounced     visits to 420 suppliers and 35 applicants. This was
as many as possible given our staff resources and time frame. Generally, we used two-
person teams for each visit. In some instances, an OIG investigator accompanied     the
teams. Each site visit lasted no more than 20 minutes.

Each team used a standardized     checklist designed to document when suppliers clearly
did not meet 1 or more of the 11 Medicare standards--or       worse, did not appear to be
a bona fide business.   The prime objective of our site visits was to ascertain whether
or not suppliers and applicants had an appropriate     physical business address.  Without
such, compliance with other standards was assumed unlikely. For example, without an
identifiable physical address, beyond a mailbox location, on-site business and oversight
were not possible.

In instances where violations of standards were not obvious, we did no further
inspection work to assure that standards were in fact met. Such a determination
would have required a long evaluation period for interviews and record reviews.

Operation Restore Trust

This inspection was part of the President’s Operation Restore Trust (ORT) initiative.
The purpose of ORT is to identify and prevent fraud, waste, and abuse in the
Medicare and Medicaid programs.          ORT is a joint initiative involving the Health Care
Financing Administration,    Administration    on Aging, Office of Inspector General, and
various State agencies.   In 1995, ORT began targeting home health agencies, nursing
homes, hospices, and durable medical equipment         suppliers in five States for
evaluations, audits, and investigations.    The five States are Florida, New York, Texas,
Illinois, and California. These States collectively account for about 40 percent of the
nation’s Medicare and Medicaid beneficiaries       and program expenditures.




                                              3
We conducted this inspection in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                           4

                                       FINDINGS 


ONE OUT OF 14 DURABLE    MEDICAL  EQUIPMENT                    SUPPLIIZRS     DID NOT
HAVE REQUIRED   PHYSICAL   ADDRESSES

Medicare standards for DME suppliers require that suppliers have a physical address. 

Such an address is important to allow beneficiaries    a place where they can reach 

suppliers about DME needs and problems.        A physical address also provides a place 

where beneficiary and financial records should be kept for oversight purposes.      Finally, 

the physical address is usually where suppliers keep their inventory.   The application 

form for DME supplier numbers elicits a supplier’s physical, mailing, and billing 

addresses.   These may be three separate addresses.     However, failure to accurately list 

a physical address can result in denial of a billing number to an applicant or 

revocation of an existing supplier’s billing number. 


One out of each 14 DME suppliers we inspected (31 of 420) did not have the required 

physical address--or their presence at the address listed on the application form was 

highly questionable.    This means that 7 percent of the DME suppliers we inspected 

need further investigation   of their legitimacy.   Table 1 below shows reasons why the 31 

suppliers did not have physical addresses.      Likewise, 4 of the 35 new applicants for 

DME supplier numbers did not have required physical addresses.          An additional 

applicant had an inaccessible address in a secured apartment       complex. 


                                               TABLE     1


II              STATUS       OF ADDRESS        VISITED            I      SUPPLIERS            II

I/Business   had closed                                           I           14              II
 Had a questionable         presence   at the address                          8

 Mail drop location        only                                                4

 Address     nonexistent    or could not be located                            5

IITotal                                                           I           31              II

As shown by the table, 14 suppliers had closed. That is, they were no longer operating
at the sites shown on their applications for DME numbers--though         their applications
had just been approved during January - June 1996. Most of the 14 had left no
information   behind such as is typical for a business merely relocating.     For example,
according to their landlord, a pair of physicians suddenly closed their office and
vanished, breaking their lease. In another instance, a neighboring business person said
the supplier had closed over a weekend, without leaving any forwarding information.




                                                    5

Table 1 also shows that eight suppliers had no, or a highly questionable   presence at
the address listed on the DME supplier application form. Residents at or near the
listed addresses were unable to say whether or not a supplier had ever been located
there. In such instances, we were unable to ascertain that a supplier was ever located
at the address given on the application form. We characterized     these eight suppliers
as having a “questionable  presence.”

For example, in Brooklyn, New York, a supplier’s address shown on the application
form was in a building that consisted of four apartments   over a laundromat. The
DME company name was not shown on mailboxes or other parts of the premises.          We
interviewed two tenants at the premises who said they had not heard of the supplier.
Since the numbers had been issued within the last 6 months, we expected the tenants
to recall the supplier if one existed. One of the tenants said the laundromat space was
formerly used as a “post office box operation.”  Further, the phone number shown on
the DME application was out of service. Thus, it was impossible to determine
whether the DME business had ever operated at the address.

FORTY-ONE  PERCENT OF SUPPLIERS                FAILED    TO MEET      AT LEA!3T ONE
DME SUPPLIER STANDARD

Forty-one percent (173) of the 420 DME suppliers we inspected failed to meet at least 

1 standard.   Likewise, 40 percent (14) of the 35 new applicants for DME supplier 

numbers we inspected failed to meet at least 1 standard.        We believe that these 

percentages   are very conservative,    however.   We only looked for prima facie and 

obvious failures to meet standards during our brief site inspections.       Our site 

inspections were designed to expeditiously determine when suppliers or new applicants 

clearly did not meet standards.      If we did not readily observe a violation of the 

standards during our 20 minute inspection, we did no detail examination         to find 

violations.  Logically, a more in-depth inspection would have revealed a greater 

number of violations. 


Further, 20 percent of the 420 existing suppliers were absent from their business 

addresses at the time of our inspection.  Therefore, beyond assessing the existence of 

a physical address, we could not determine whether or not they met the standards. 

Typically, those businesses were closed at the time we attempted   our site visits. 

However, had we gotten access to those businesses and owners, we believe we would 

have identified more instances of noncompliance. 


Table 2 lists DME standards in effect at the time of our inspection, and the 

percentage   of existing suppliers we inspected that failed to meet each standard.    With 

one exception, “physical address,” the percentages    in the table are not based on 420 

suppliers.  The percentages     are based on the number of sites where we could assess a 

particular standard.    For example, at 306 sites, we were able to assess whether or not 

suppliers met the inventory standard.     We were able to check for liability insurance at 

240 sites. At some locations, we could not assess any standards beyond the existence 





                                             6

of a physical address.   Such locations were where no supplier spokesperson was
available for an interview and where we could not gain entrance into the business.

                                                   TABLE     2


                 DME      SUPPLIER           STANDARD                          PERCENTAGE/
                                                                               NUMBERTHAT
                                                                                  FAILED

 Consumer information           (copy of suppliers      standards   to         45%         111 of 248
 beneficiaries)

 Allow return      of unsuitable     items                                     20%          19 of 95
 Warranty      repairs                                                         17%         17 of 101

 Inventory                                                                     9%          27 of 306
 Liability    insurance                                                        7%          17 of 240
 Physical     address                                                          7%          31 of 420

 Maintenance       and repair      (rented    items)                           6%           8 of 132

 Questions/complaints                                                          3%           7 of 206

 Business     license                                                          3%           5 of 200

 Delivery     of items and equipment                                           1%           2 of 207
 Disclosure     of ownership                                                   0%           0 of 269

The Medicare standard failed by the most suppliers was the one requiring them to
provide a copy of the supplier standards to each beneficiary receiving DME. Because
this is perhaps the easiest standard to meet, the high rate of noncompliance    was
surprising.   Most of the suppliers that failed the standard said they were unaware of
the requirement.

OVERSIGHT           OF HOME-BASED               DME    SUPPLIERS         IS PARTICULARLY
DIFFICULT

Thirteen percent (57) of the 420 DME suppliers we inspected gave their residence as
a business address.  Of the 35 pending DME applicants, 4 were located in residential
locations. This means that about one out of seven existing DME suppliers claim to
conduct business out of residences such as a single-family house, mobile home,
apartment,  or condominium.    Similarly, about one out of nine of the new applicants
for DME supplier numbers listed such business sites.




                                                        7

Residential DME suppliers create a unique oversight problem for HCFA, NSC, and
OIG. First, HCFA’s DME application form does not distinguish between home-based
suppliers and those at traditional business sites. Second, home-based      suppliers often
do not post a sign which identifies their business sites. Third, home-based      suppliers
typically are not at home during normal business hours. Fourth, home-based          suppliers
sometimes restrict public access to their residences.   Finally, home-based    suppliers
frequently have telephone    answering machines that do not identify their business.

ApplicationFom For DME NumbersDots Not IdentifyHome-Based Suppliers

HCFA’s DME number application form does not differentiate           between home-based
suppliers and those at traditional business sites. Such information     is important for
determining   which types of suppliers are engaging in improper or fraudulent activities,
i.e., what are the trends relative to supplier types and fraud. Home-based        suppliers
are not subjected to the same level of public scrutiny as are traditional storefront or
corporate suppliers.    Similarly, home-based  suppliers are less accessible for program
oversight.   The need for such oversight becomes more important due to the current
trend toward home-based       businesses.

At the time we completed  our inspection, HCFA was in process of revising the
application form. However, we understand   that the revised form will still not identify
home-based   suppliers.

Residenca Frequent&Not IdentijiedAs A Business

The physical location of a DME supplier is typically where inventories and sales
models are kept. It is also the place where beneficiaries  come to meet suppliers and
obtain needed equipment.     However, we rarely found a business sign or other
identifier information that a business was in operation at addresses given by home-
based DME suppliers we inspected.

Without identifiers such as signs, it is also difficult for HCFA and NSC to locate
home-based      DME suppliers for oversight purposes.      Residential zoning or other
similar restrictions may account for the absence of a sign, but the fact remains that
this traditional way to identify a business site is simply unavailable with many home-
based suppliers.

Given the absence of such identifiers, our inspection teams were unable to readily
locate some DME suppliers that we had sampled for inspection.         Even after finding
the address listed on the application form, we were often not sure that we had located
the supplier.  As a result, we were unable in many instances to ascertain whether or
not DME supplier standards were met. More basic than that, site inspections to
home-based    suppliers typically cannot even confirm the existence of a business nor
ascertain the types of items purportedly   being provided to beneficiaries.




                                               8
   .
Busmess Opemtom ljpically Not At Home DuringNom1                 Busines Hours

Only 14 of the 57 suppliers purportedly    working out of their homes were present at
the time of our site inspection, although we conducted our inspections during normal
business hours. We ascertained     through phone calls with some home-based    suppliers
that many of them consider their DME business to be a secondary venture.       They
work on other activities during regular business hours.

This problem hampers access for oversight purposes, and it increases the cost of
oversight for HCFA and NSC. To illustrate, monitoring would likely require repeated
trips, and the trips would likely have to be done outside of normal work hours.
Because home-based      suppliers are typically absence from their residences, it is
generally useless to conduct on-site monitoring visits during normal business hours.
This is particularly true for unannounced      visits.

Such difficulty in contacting home-based       DME suppliers     could affect their ability to
serve Medicare beneficiaries.

Access To Re.khcm       Is SometimesRedcted

During our site inspections, some neighborhoods      and many apartment   buildings were 

secured by gates, guards, and buzz-in locking systems. While we were able to use our 

credentials to gain access to locations with security guards, entrance through secured 

gates and into locked buildings was sometimes not possible. 


Persons with less imposing credentials would likely get little or no cooperation    from 

security guards whose job is to keep out persons not properly cleared.      Gaining access 

to restricted residences could be particularly difficult for Medicare beneficiaries   who 

need DME. 


We identified some residences where individuals were inside, but they refused to 

answer the door. In some cases, the individuals peeked through the blinds, 

disappeared   from view, and ignored further attempts to speak with them. Without 

gaining entrance and locating someone to inteniew,       oversight is impossible. Neither 

the OIG, HCFA, NSC, nor other oversight officials could, for example, verify inventory 

or determine    that beneficiaries are allowed to return unsuitable items. 


Conversely, at traditional   business   sites, such as stores or office buildings,   access was 

not a problem. 


Home-Based SuppliersAre D@icdt To ContactBy Telephone

In most instances, home-based     DME suppliers used personal telephones     for their
business activities. In such instances, telephone calls during a supplier’s absence are
often answered by personal answering machines.      However, the recorded message




                                                 9

does not always identify the business. In some instances,      a caller cannot   be sure he or
she reached the correct number for the DME supplier.

THE EASE AND LOW EXPENSE                OF ACQUIRING    A DME SUPPLIER
NUMBER  FACILITATES ENTRY               OF ABUSERS   INTO THE PROGRAM

Despite DME supplier standards and an application review process, acquisition of a
Medicare DME supplier number is easy. Further, it requires no financial investment.
This, combined with the potential high revenue resulting from having a DME billing
number, attracts many people--both   legitimate and nonlegitimate suppliers.

No FinancialInveshnentRequired

Supplying durable medical equipment       to Medicare beneficiaries   can be a profitable
business--whether    a supplier takes a legitimate or illegitimate approach.    Essentially, a
person only needs a supplier number to bill the Medicare program.          That number can
be obtained by merely answering a few questions on a simple application form, and
mailing that form to NSC. No investment in a business location nor inventory is
required.   A supplier may arrange for shipment from a manufacturer          or distributor
directly to Medicare beneficiaries.    Thus, the supplier does not have to bear the cost
of keeping an inventory on-site.

The absence of an investment allows unethical persons to enroll and test their
fraudulent   schemes at no cost to themselves. During our inspection, we found several
individuals who applied for and received supplier numbers on a whim. They did not
know how or if they would use the numbers.     Some persons said they decided not to
bill Medicare after getting the number, and a few asked our inspection team to “take
their DME number back and cancel it.”

Lit& VerificarionOfApplicationInform&m

Applicants for DME numbers are required to do          little other than assert that the
information   they provide on an application form    is true. The NSC verifies only a
limited amount of information      provided on DME      number applications.    They do so by
calling the applicant or some third party, such as    local licensing agencies and State
offices that issue articles of incorporation.

No ExperienceWuh MedicalEquipmentRequired

An applicant needs no credentials, and is not required to have any experience with
medical equipment    to obtain a DME number.     Likewise, one does not have to
formulate a business plan or purpose showing intent to service Medicare beneficiaries.
The absence of such experience and qualifications    seems to facilitate entry of abusers
into the program.   The ease in getting a number unnecessarily    opens an opportunity
for fraud or abuse. The following examples illustrate the ease of getting a DME
billing number, and potential for fraud and abuse.


                                              10 

  b	   A woman who lives in an upscale house on a lake applied for and received a
       DME number.         She purportedly    operates a medical supply company at that
       address.   However, her husband openly told us his wife knew nothing about the
       DME business.        He said, on the other hand, he did know about the business
       because he is a supplier.      Nevertheless,   the applicant herself was completely
       inexperienced--clearly    raising questions of why she applied for her own number.
       The situation showed more potential for impropriety          than for operation of a
       bona fide business.

  b	   A Florida souvenir dealer whose shop is in his garage applied for and received
       a DME number.        His main business line includes stuffed alligator heads,
       alligator skin wallets, and stuffed turtles. But because his brother-in-law   installs
       wheelchair lifts on vehicles, he decided to add wheelchairs, lift chairs, and beds
       to his line of business.  He had no experience or credentials for supplying
       DME. Further, he keeps no DME inventory.           He said he has only filed one
       Medicare claim.

The suppliers described above were only two of many that raised questions on
suitability for DME numbers.     For example, we found dealers in fancy spas, golf carts,
home modifications,    and sports shoes to have DME numbers.    We did not establish
that suppliers such as the above examples abused the Medicare program.       However,
they clearly raise questions on appropriateness  of receiving DME billing numbers.

CONCLUSION

It is clear that NSC is limited in preventing issuance of improper DME numbers 

without conducting site verifications of applicants.    HCFA staff advised us that the 

specialization   of one national clearinghouse  (NSC) is advantageous      for screening and 

issuing DME numbers.        We concur. Nevertheless,    desk verifications done in 

Columbia, South Carolina cannot be as thorough and effective as on-site verifications. 

We understand      the resource implications of site verifications.  However, the cost 

should be easily off-set by a reduction of fraudulent suppliers entering the Medicare 

program. 


Further, on-site verification would not be needed for all applicants.   Some low-risk 

applicants may quickly be relegated to desk verification as is currently done. For 

example, site verification of corporate suppliers such as a major chain of pharmacies 

in Wal-Mart or Eckerd Drug stores may need limited verification, or none at all. To 

the extent it is needed, verification would likely be done at the corporate 

headquarters.    Our logic here is based on two generalizations   from out site visits: 

major chains have a centralized operation, and--as a result--staff in a local store know 

nothing about the DME number, nor Medicare claims. 


Our DME on-site inspections indicate that many unqualified, inexperienced  people are 

getting into the DME business. Many DME suppliers we interviewed had little or no 

idea how the Medicare DME business worked.    Given the present application process, 



                                               11 

the only reliable way to discover   unethical   and improper   practices   by suppliers   is to
make on-site inspections.

The current DME application form is inadequate        to judge the ability of applicants to
meet the needs of the Medicare program and its beneficiaries.       Although HCFA has
revised the form, our site inspections suggest that further revisions are needed.       The
current application    (Form HCFA4355S) could be more effective, from a program
integrity perspective.    For example, it would be beneficial to have the application
identify residential business locations, and when suppliers are available to conduct
business.   Similarly, requiring applicants to say whether their business is full-time or
part-time would be helpful.




                                                12 

                       RECOMMENDATION 




HCFA    should take quick action to ensure integrity of Medicare suppliers of DME.

HCFA and the National Supplier Clearinghouse         have recognized many of the 

problems and issues raised in this report.   Both, in fact, supported our data collection 

effort during this inspection. Their positive and constructive steps should help 

improve operation of the DME program.        Further, they have begun to implement 

some of the options listed below. Each option should be considered independently,         on 

its own merit. 


  b	   Application fee:    Charge all DME applicants an application fee. The fee
       should cover costs of processing an application and verifying, through on-site
       inspections, legitimacy of the business.

  b	   Surety bond: Require all suppliers to have a surety bond. The bond should be
       indexed to the volume of Medicare business transacted by a supplier in the
       previous year. Such a requirement  would help indemnify HCFA against fraud
       and reduce the number of applicants who apply for a supplier number with no
       clear intent.

       We understand    that HCFA’s proposed revision of supplier standards would
       require annual surety bonding for all existing suppliers, and as a condition of
       enrollment  for all supplier applicants.

  b	   On-site verifications: Conduct    on-site verifications at physical locations of
       applicants.   Several approaches   are possible for selecting applicants to be
       inspected.   Primarily, HCFA could inspect the sites of all new applicants, or
       develop a profile which identifies high risk ones. The OIG would be willing to
       assist in developing such a profile.

       HCFA is presently using a contractor to conduct site visits in South Florida. 

       We did not assess that methodology        during our inspection.  However, HCFA 

       reports indicate that it is working well. HCFA is currently in the process of 

       implementing    similar site verification visits in the Brooklyn and Bronx areas of 

       New York City. We endorse this action. Such site verification visits would be 

       beneficial if done in other geographic areas as well. 


  b	   Training:     Require DME regional carriers to conduct training for all new
       suppliers    on program requirements,   and on proper billing procedures.
       Suppliers    should pay a fee for such training. The amount of the fee should be
       sufficient   to completely pay for the training.




                                              13 

  b	   Inactive numbers: Increase review of inactive DME supplier numbers.
       Currently, HCFA inactivates billing numbers after four consecutive quarters of
       inactivity.  In view of the inactive suppliers whom we found got a billing
       number on a whim, HCFA should consider initially reviewing a supplier’s billing
       activities after a reasonable period--i.e., 90 days or 6 months. Such a review
       and deactivation    of inactive numbers could help reduce the number of supplier
       numbers lying fallow. After the initial review, DME numbers found to be
       active could be reviewed annually.

  b	   Application form:     Further revise the DME application form. HCFA has been
       revising the supplier application form over the last year in an attempt to better
       meet the needs of a changing profile of suppliers.    HCFA has consulted with
       their regional offices, NSC, DME regional carriers, and the supplier industry
       related to those revisions. The new application (Form HCFA-855s)
       encompasses    some of the options in this report. However, the OIG would be
       willing to work with HCFA in further revising the application form to reflect
       program integrity concerns raised from this inspection.

  b	   Social Security and tax identification numbers: Seek authority to require Social
       Security numbers (SSNs) and employer identification        numbers from all DME
       applicants.   As part of the overall effort to ensure the integrity of DME
       suppliers, HCFA should seek legislative authority for the Secretary to require
       DME number applicants--i.e.,      all managing employees and owners--to provide
       their SSNs and employer identification      numbers.   Access to those unique
       identifiers will enable HCFA and its contractors to more effectively screen
       applicants.   Those identifiers can also facilitate, when necessary, corrective
       actions related to billing aberrancies, fraud, or abuse. For example, the SSN
       could be useful in recovering Medicare funds from a fraudulent DME supplier.

  b	   &month delayed reapplication: Impose a 6-month waiting period on applicants
       who are denied DME billing numbers for cause. That reapplication       waiting
       period should discourage applicants from failing to provide pertinent
       information  or failing to cooperate with inquiries by NSC. It should also keep
       applicants from frivolously overburdening   the application process by applying
       repeatedly.   Conversely, applicants who apparently pursue their applications   in
       good faith, but are denied because of certain minor problems could be exempt
       from the waiting period.

The implementation   of the first option   will provide   financial   resources   to implement
the others.




                                              14 

                  AGENCY               COMMENTS

HCFA concurred with our recommendation.        Their comments are in Appendix A.
The Balanced Budget Act of 1997 authorized Medicare to collect Social Security and
tax identification numbers and required suppliers to have a surety bond.




                                         15 

APPENDIX    A





HCFA COMMENTS 





      A-l
             *
         -
     .




 .
-    .
                                                              418   786       9184   P.O3/85
                              OIGdEI43CS   - B
    NOU-04-1997       16:15


.




                                                       . ..
                                                     . ‘.
                                                 .
            gJ&QJaas




                                                                    c     -
                  .
                  .
Nou-04-1997    16:16          oIG/oEI@fXS    - B                           410   786   9184    P.04/05




OIG Outian 4

Requireprogramfnin@ fir new suppliersby the Medicareregionalcarriers.



HCFAconcurswithsbeintentoftbisrecomm~on              However,becueofllmitedsta@and
fiinanciPIrtsources,HCFAisunableto~~trairliagforann~suppliers9tthistime. The
DMERCa periodically holdkining sessionsw&b k&de t&kg for newsupplks. Each
D~Chasitsowasuppliermanualfortbeuseof~mppliersinitsarea.               T&e
supplier manuals are updated periodically. The DMEKs also publish quark& bulletins
withnews,newbillingrequirements, policies, and reminders. We will explore ways to
illten@ these eferts.             .

QIG Ontion 5

Increase the review of inactive numbers.



We concur. We have instituted procedures at the NSC whereby it will dkct&tc supplier
mmbcrs on a qurterly basis for suppliers who have not billed for 4 quaxtcrs. The NSC
will deactivate supplier numben every 3 months far non-billing instead of every year.

QIG Ootion 6

Fur&r Tevisethe application form.

)IcFA Comment

We cxmcur. The form has been revised to collect kfkmatiw       on whether a supplier
applicant is operating &cm a residence. In fact; we ban developed a new enrollment
pnxess that requires carriers to veri@ all data provided on the application, e.g., licensure
informat;on, prior sanction or exchkon i&rmation, place of business, owner&&
information, biilkg contracts, tax idmtification data, etc. This information is verifkd
w&bt&estate licerkg board, OIG, and professional eons.               We would w&xx~
the OIG’s input on W-m3revisions.
                                      P.05/85
                     410 786   9184

Now-W-1997   16:16




                        � 




             .
                                          TOTFIL P.05
